                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A03020007            1                                         1           Page 1 of 1



     On February 20,2003, we received an allegation of plagiarism in a Small Business Innovation
     Research (SBIR) award1.Specifically, it was alleged that the proposal must have been
     plagiarized, because the author was not an expert in a critical research area described in the
     proposal. The Complainant provided no evidence of plagiarism, however.

     We opened an inquiry under NSF's Research Misconduct regulation and reviewed other
     proposals submitted by the Principals of the small business. We found that the SBIR proposal
     was ultimately based on a declined research proposal submitted by a multi-disciplinary team with
     appropriate credentials.

     However, other issues arose in the course of our inquiry which involve potential violations of
     law. These issues will be pursued in the context of a civil/criminal case. Accordingly, this
     administrative case is closed.
